<html>
<title> - THE ROLE OF RECEIVERS IN A SPECTRUM SCARCE WORLD</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
            THE ROLE OF RECEIVERS IN A SPECTRUM SCARCE WORLD

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 29, 2012

                               __________

                           Serial No. 112-183



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
85-744                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bed9ced1feddcbcdcad6dbd2ce90ddd1d390">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 7_____

             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
CLIFF STEARNS, Florida               EDWARD J. MARKEY, Massachusetts
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARY BONO MACK, California           DORIS O. MATSUI, California
MIKE ROGERS, Michigan                JOHN BARROW, Georgia
MARSHA BLACKBURN, Tennessee          DONNA M. CHRISTENSEN, Virgin 
BRIAN P. BILBRAY, California             Islands
CHARLES F. BASS, New Hampshire       EDOLPHUS TOWNS, New York
PHIL GINGREY, Georgia                FRANK PALLONE, Jr., New Jersey
STEVE SCALISE, Louisiana             BOBBY L. RUSH, Illinois
ROBERT E. LATTA, Ohio                DIANA DeGETTE, Colorado
BRETT GUTHRIE, Kentucky              JOHN D. DINGELL, Michigan (ex 
ADAM KINZINGER, Illinois                 officio)
JOE BARTON, Texas                    HENRY A. WAXMAN, California (ex 
FRED UPTON, Michigan (ex officio)        officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     4
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     5
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................     6
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     6

                               Witnesses

Ronald T. Repasi, Deputy Chief, Office of Engineering and 
  Technology, Federal Communications Commission..................     7
    Prepared statement...........................................     9
    Answers to submitted questions...............................    56
Pierre de Vries, Senior Adjunct Fellow, Silicon Flatirons Center 
  for Law, Technology, and Entrepreneurship, University of 
  Colorado at Boulder............................................    15
    Prepared statement...........................................    17
Brian Markwalter, Senior Vice President, Research and Standards, 
  Consumer Electronics Association...............................    30
    Prepared statement...........................................    32


            THE ROLE OF RECEIVERS IN A SPECTRUM SCARCE WORLD

                              ----------                              


                      THURSDAY, NOVEMBER 29, 2012

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:58 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Greg 
Walden (chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Terry, Stearns, 
Blackburn, Gingrey, Latta, Guthrie, Eshoo, Markey, Barrow, and 
Christensen.
    Staff present: Ray Baum, Senior Policy Advisor/Director of 
Coalitions; Andy Duberstein, Deputy Press Secretary; Neil 
Fried, Chief Counsel, Communications and Technology; Debbee 
Keller, Press Secretary; Andrew Powaleny, Deputy Press 
Secretary; David Redl, Counsel, Communications and Technology; 
Charlotte Savercool, Executive Assistant; Roger Sherman, 
Democratic Chief Counsel; Shawn Chang, Democratic Senior 
Counsel; David Strickland, Democratic FCC Detailee; Margaret 
McCarthy, Democratic Professional Staff Member; and Kara Van 
Stralen, Democratic Special Assistant.
    Mr. Walden. We will call to order the Subcommittee on 
Communications and Technology and our hearing on ``The Role of 
Receivers in a Spectrum Scarce World.'' First of all, I want to 
thank our witnesses not only for your extraordinary testimony--
we appreciate it; I have read through it--but also for your 
patience and that of our visitors here today as well.
    As you know, we are all in our organizational phases in the 
Congress and we are giving courtesy to my colleagues on the 
other side because they were having an organizational meeting 
today. And we appreciate their breaking loose so we could get 
this going even though we are a little delayed. So it is what 
it is. Thank you. I will start with some opening comments and 
then recognize my friend and colleague from California.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Good fences make good neighbors. Where I come from in 
Oregon, we know that is the case whether it is crowded city 
blocks or sprawling ranches. In many places in my district, the 
ranches stretch for miles, and running out of space isn't a 
problem. But in our digital world--in Oregon and around the 
country--we are running out of room. Demand for spectrum is far 
outpacing supply, and we need to figure out how to use this 
room we have as efficiently as possible. In short, how do we 
create good, strong fences to make sure everyone stays within 
their spectrum bands so spectrum can be used as efficiently as 
possible?
    Now, why is this important? Simple. Spectrum equals jobs. 
Telecommunications is the most vibrant and innovative sector in 
America. Spectrum is the fuel that it runs on, but there is a 
limit to our supply. As our subcommittee continues its work to 
free up more spectrum, we are also focused on maximizing the 
use of the existing spectrum. We have taken a forward-looking 
approach--authorizing first-of-its-kind incentive auctions and 
taking a look at making government spectrum use more efficient 
and more available.
    This hearing focuses on receivers and how interference 
issues can impact our ability to roll out new broadband 
services. While the controversy surrounding LightSquared and 
GPS is one example, we have seen similar debates involving a 
would-be broadband provider called M2Z networks. We have seen 
it in satellite radio; we have seen it in unlicensed and white-
space devices. So that this issue is starting to recur more 
frequently raises an important question: What engineering 
techniques and smart strategies are available to fit more 
mobile services in a crowded spectrum environment without 
having to carve out larger and larger guard bands--big, 
inefficient moats--to avoid interference? And how can we do so 
without unreasonably increasing the costs of services and 
devices?
    Now, the Federal Communications Commission has 
traditionally tried to combat interference by regulating 
wireless transmitters and placing wireless services of a 
similar type in neighboring bands--like a city planner placing 
schools next to other schools and factories next to other 
factories. While that has generally been successful in the 
past, fitting additional users into existing spectrum is 
becoming more difficult with the accelerating rise of the new 
wireless technologies and services.
    Recently, both the FCC and the President's Council of 
Advisors on Science and Technology have taken a fresh look at 
the way we manage interference and suggested that we need to 
begin examining receiver performance to maximize our spectrum 
resources. This is in part because receivers are developed to 
meet current technological needs, not to anticipate a changing 
spectrum environment. They are built for the technology world 
of today or even a few years ago, which, as we know, will look 
very different in just a few more years. Again, we need to be 
prepared.
    As a result, the FCC is increasingly either rejecting new 
users to protect existing ones or turning to guard bands--bands 
of restricted-use spectrum to physically separate the two 
licensed uses. Sometimes these guard bands are like digging a 
big, wide moat between neighbors when a simple fence will do. 
Neither rejecting new users, nor ordering large guard bands, is 
ideal if we intend to remain the world's most innovative 
wireless community and economy.
    Today's witnesses include electrical engineers and a 
physicist with expertise in radio engineering. So I look 
forward to your guidance on how receiver performance strategies 
in devices as different as televisions, Smartphones, and GPS 
systems impact our ability to put spectrum to its best use. I 
am also looking forward to your thoughts on how to strike a 
balance so we can accommodate new innovations in wireless 
technology without forcing manufacturers to waste time and 
money over-engineering receivers for unworkable future uses. 
Remember: spectrum equals jobs, and we must make sure it 
continues to remain a job-creation engine into the future. We 
must ensure that our policies promote continued growth and 
innovation in this sector without endangering our Nation's 
communications, commerce, and security.
    We are also looking forward to the full report from the 
Government Accountability Office as we requested in our 
spectrum legislation, which is now law, as they look at this 
issue as well.
    So, gentlemen, thank you for being here. I now would 
recognize the gentlelady from California.
    [The prepared statement of Mr. Walden follows:]

    [GRAPHIC] [TIFF OMITTED] T5744.001
    
 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman. And my thanks to all of 
my Republican colleagues for your patience, as well as that of 
the witnesses and everyone that has come to this hearing today 
as the Democrats held their reorganizational caucus. And I had 
no idea that it would take the amount of time that it did, 
especially with unanimous nominations, but the speeches went on 
and on. So thank you again for your patience.
    Mr. Chairman, harmful interference between adjacent 
spectrum bands is becoming the new spectrum crisis. As time in 
which demand for mobile broadband continues to skyrocket, 
ensuring that every megahertz of spectrum is used efficiently 
is as important as our ongoing effort to free up new spectrum 
bands. And our subcommittee I think has worked very, very hard 
on this certainly with the instruction of witnesses, our 
terrific staffs, and others as well.
    What happened to LightSquared, a promising company with 
plans to inject new competition into the wireless broadband 
market, is disappointing. But unfortunately, that ship has 
sailed. What is just as unfortunate is that this isn't the 
first time in which an incumbent has raised the problem of 
receiver overload. Similar interference issues arose between 
cellular and public safety radio systems, as well as between 
satellite digital radio systems and proposed terrestrial data 
services.
    These are tough issues. Consumers want their Smartphones 
and tablets to provide fast, reliable broadband service, but no 
one wants more expensive devices, a potential outcome of 
setting standards on receiver performance. If we successfully 
reconcile these competing goals, I believe consumers win, new 
entrants will have greater certainty before investing billions 
of dollars, and a thriving consumer electronics industry will 
not be unduly burdened.
    Like most members of this subcommittee, I am not an 
engineer and I don't have the technical expertise to answer 
questions such as how much interference is tolerable, what the 
cost of imposing standards are on receiver performance, and if 
such standards were imposed, how many megahertz of unused guard 
bands could be repurposed for mobile broadband? Recognizing the 
importance of spectrum efficiency, we included a GAO study of 
receiver performance in the bipartisan spectrum bill, which was 
signed into law earlier this year. The results of this study, 
the work of the FCC's Technological Advisory Council (the TAC) 
along with the experts testifying before our committee today 
will guide us as we tackle these challenging questions and 
determine whether new legislation and FCC rulemaking or 
advancement in technology or a blend of these things--I don't 
know--are the appropriate path forward.
    So thank you again, the patience of our witnesses. You got 
to stay longer in Washington. Oh, joy, is right. But we really 
appreciate your being here to be instructive to us. We thank 
you for your important work that you have done and what you 
will continue to do to promote spectrum efficiency.
    And with that, I yield back, Mr. Chairman.
    Mr. Walden. I thank the gentlelady for her opening 
statement and comments and now I turn to the vice chair of the 
subcommittee, Mr. Terry.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you, Mr. Chairman, for holding this 
important hearing on receivers. I can tell you that many in 
Nebraska are very upset that wide receiver Kenny Bell was not 
named All-Big Ten and have demanded a hearing for which I 
appreciate you calling.
    Seriously, though, we have before us a policy that is 
especially difficult to solve. As recent disputes over 
interference clearly illustrate that the center of these 
conflicts is the question of who bears the cost of mitigating 
interference, the incumbent or the newcomer? This transaction 
cost is a big obstacle to efficient spectrum use. And the 
efficiency of spectrum use is so vital because spectrum is the 
lifeblood of the wide variety of wireless services that see 
ever-increasing demand. Spectrum, like valuable land, cannot 
lie fallow or else our economy really bears the cost.
    The problem before us requires us to look closely at the 
costs involved with mitigating interference. I am very 
interested in hearing our witnesses' ideas about how best to 
handle these costs. If the FCC has a role here, what should it 
be? Whatever the answer is, I understand that our task is to 
ensure that the licensees are able to utilize their inputs 
effectively, but we must also avoid the trap of imposing 
inordinate costs on a single type of licensee or hampering 
innovative uses of spectrum.
    I look forward to working with all of my colleagues and 
look forward to hearing from our witnesses.
    Yield to the gentleman from Florida.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. I thank my distinguished colleague from 
Nebraska and I welcome this hearing.
    And this hearing is an important follow-up from the hearing 
of my Oversight and Investigations Subcommittee that I chair 
that was held in September and that examined the FCC's role in 
the LightSquared network. As we discussed during that hearing, 
LightSquared's billion-dollar investment has simply been put in 
jeopardy due to an overload interference issue that is caused 
by faulty receivers and GPS devices. I warned then that we must 
not let poor receiver standards result in more interference 
issues down the road. Therefore, I am very pleased that this 
subcommittee is closely examining the issue and beginning an 
important discussion in how we can address receivers going 
forward. It is extremely important.
    I agree with the witnesses today that we should be wary of 
government mandates that would govern receiver designs. 
However, I do believe that more must be done to ensure maximum 
use of our spectrum.
    So I look forward to their approaches and I yield back, Mr. 
Chairman. Thank you.
    Mr. Walden. The gentleman yields back.
    Mr. Latta or Mr. Guthrie, any comments before we go on? 
Seeing none, the time is yielded back.
    Is there a request for time on your side, Dr. Christensen?
    It doesn't appear we have any other Members seeking 
recognition at this time. So now we will move right----
    Mr. Terry. Note this date in history.
    Mr. Walden. They have waited long enough. So let's start 
with Mr. Repasi. Thank you for being here from the Federal 
Communications Commission. We appreciate your testimony and 
look forward to your comments. And just kind of pull that mike 
close, make sure it is on, and then we will avoid any receiver 
or transmitter interference with your comments.

    STATEMENTS OF RONALD T. REPASI, DEPUTY CHIEF, OFFICE OF 
ENGINEERING AND TECHNOLOGY, FEDERAL COMMUNICATIONS COMMISSION; 
   PIERRE DE VRIES, SENIOR ADJUNCT FELLOW, SILICON FLATIRONS 
CENTER FOR LAW, TECHNOLOGY, AND ENTREPRENEURSHIP, UNIVERSITY OF 
    COLORADO AT BOULDER; AND BRIAN MARKWALTER, SENIOR VICE 
    PRESIDENT, RESEARCH AND STANDARDS, CONSUMER ELECTRONICS 
                          ASSOCIATION

                 STATEMENT OF RONALD T. REPASI

    Mr. Repasi. Good afternoon, Chairman Walden, Ranking Member 
Eshoo, and members of the Communications and Technology 
Subcommittee.
    My name is Ron Repasi and I am deputy chief of the FCC's 
Office of Engineering and Technology. OET is the Commission's 
primary resource for engineering expertise and provides 
technical support to the chairman, commissioners, and the FCC's 
Bureaus and Offices.
    I appreciate your bipartisan interest in receiver standards 
and for this opportunity to testify concerning the role of 
receivers in enabling spectrum to be used for new and 
innovative communication services. I am pleased to report that 
the FCC's efforts to explore the issue in a comprehensive way 
that includes stakeholders and technical experts in both the 
Federal and private sectors.
    There is no question that, without concerted action, the 
demand for mobile broadband spectrum would quickly outpace the 
available supply. The Commission has and continues to take 
numerous steps to meet this demand, including reallocating 
spectrum, fostering advanced spectrum sharing techniques, and 
promoting improvement in efficient spectrum use.
    The Commission's spectrum management efforts have focused 
primarily on transmitters by establishing limitations on power 
and noise that they may generate outside their designated 
frequency bands while the performance of receivers has 
generally been left to the marketplace. Receivers are expected 
to operate within the same parameters as their associated 
transmitters. That is not always the case because sometimes 
receivers pick up energy outside of the spectrum provided for 
their service.
    Receiver performance is becoming increasingly important as 
a limiting factor as we move to repurpose spectrum and pack 
more services closer together. The continuing challenge for the 
Commission will be to maximize the amount of usable spectrum 
for cost-effective deployment of new communication services 
while sufficiently protecting incumbent receivers. If receiver 
technology remains static or is unable to keep pace with the 
rapid evolution of transmission technologies, the challenges 
before the Commission will increase dramatically.
    In 2003, the Commission initiated a Notice of Inquiry to 
consider incorporating receiver interference protection 
standards into spectrum policy on a broader basis. The 
proceeding was terminated in 2007 but the Commission found that 
nothing precludes it from evaluating the issues raised by 
parties in the context of other proceedings that are frequency 
band or service specific.
    Over the past several years, receiver performance issues 
have arisen in certain band-specific instances as a conflict 
between legacy stakeholders and new entrants. The Commission is 
proactively addressing the issue of receiver performance and 
its impact on spectrum access for new services. Earlier this 
year, Chairman Genachowski initiated a review of spectrum 
efficiency and receiver standards with a two-day workshop at 
FCC headquarters, featuring a broad range of experts and 
stakeholders, including licensees, equipment manufacturers and 
consumers. Chairman Genachowski has also tasked the 
Commission's Technological Advisory Council to study the issue 
of receiver performance, and OET Chief Julius Knapp has been 
working with the TAC as it develops its recommendations. The 
TAC plans to finalize its recommendations at this upcoming 
December 10 meeting and then submit to the Commission those 
recommendations for consideration.
    Commission staff participated as well in various technical 
groups organized by private sector entities and to discuss 
ideas about how to address receiver spectrum issues. Staff also 
met with filter and electronic component suppliers to discuss 
technology developments that hold promise for improving the 
interference rejection capabilities of receivers. These efforts 
by the Commission to gain a broader perspective on receiver 
performance have been conducted in tandem with OET's 
cooperation with GAO as it carries out the Job Creation Act 
requirements to the study receiver performance and spectrum 
efficiency. We look forward to the GAO report and consulting 
with Congress as we consider what next steps may be appropriate 
following release of the report.
    Again, thank you for this opportunity to testify here 
today. We look forward to working with you and your staff to 
forge solutions to future engineering challenges. And I would 
be happy to answer any questions you may have.
    [The prepared statement of Mr. Repasi follows:]

    [GRAPHIC] [TIFF OMITTED] T5744.002
    
    [GRAPHIC] [TIFF OMITTED] T5744.003
    
    [GRAPHIC] [TIFF OMITTED] T5744.004
    
    [GRAPHIC] [TIFF OMITTED] T5744.005
    
    [GRAPHIC] [TIFF OMITTED] T5744.006
    
    [GRAPHIC] [TIFF OMITTED] T5744.007
    
    Mr. Walden. Thank you very much, Mr. Repasi. We appreciate 
the good work of you and your staff and Julius Knapp down at 
the FCC. We have called upon your or Julius before for your 
engineering answers, and we appreciate all that you do down 
there.
    We are going to go now to Mr. Pierre de Vries, Senior 
Adjunct Fellow, Silicon Flatirons Center, University of 
Colorado, Boulder. Mr. de Vries, thank you for being here. I 
appreciate your testimony and look forward to you offering it 
orally.

                  STATEMENT OF PIERRE DE VRIES

    Mr. de Vries. Thank you, Chairman Walden, Ranking Member 
Eshoo, and members of the subcommittee. It is a pleasure and an 
honor to be here today.
    Yes, I am the physicist. My name is Pierre de Vries. I have 
been involved in spectrum issues for about a decade and spent 
the last 4 years focusing on the issue that is the subject of 
this hearing today.
    I laid out my testimony under four headings, and I would 
like to just summarize the key points: first, the ``spectrum 
crunch.'' The spectrum crunch that matters is the need to 
squeeze in evermore services into increasingly crowded 
spectrum, and that requires the ability to improve receivers 
and radio systems in general to tolerate interference in 
adjacent bands if they are in a given band. In this regard, I 
would like to compliment and commend you, Mr. Chairman and the 
committee, for your hard work on the incentive auction 
legislation. That was a vital step in extracting maximum value 
from this very scarce spectrum.
    The FCC can also play its part, I believe, by drawing 
boundary lines more clearly. That is by clarifying both the 
rights that radio services have to be protected from harm and 
their responsibilities to tolerate reasonable interference.
    Second, yes, receiver performance is key. Receivers in one 
band or in fact more accurately the receivers and the 
transmitters together as a system in that band--receivers that 
cannot tolerate reasonable levels of interference in an 
adjacent band unfairly impose costs on others and they reap the 
benefits themselves--for example, cheaper equipment. So far, as 
we have heard, the FCC has handled such interference almost 
entirely by placing the burden on the neighbor--for example, by 
reducing their transmit power sometimes to zero, effectively 
precluding the introduction of valuable new services. However, 
the receiving system operator also needs to bear some 
responsibility, but it needs to know what that responsibility 
is.
    So third, I believe we can go a long way towards solving 
this problem by using harm claim thresholds, also known as 
interference protection limits or interference limits, and that 
is the proposal I am putting to you today. Harm claim 
thresholds state the interference levels in adjacent 
frequencies that a service needs to tolerate without being able 
to bring a harmful interference claim. No FCC-mandated receiver 
specifications or standards are required. Harm claim thresholds 
let manufacturers and operators figure out the best way to deal 
with interference--for example, by deploying suitable 
receivers.
    Now, there may well be a few cases where harm claim 
thresholds won't be sufficient and additional measures, perhaps 
even mandated standards, may be unavoidable in a few cases, but 
they should be a last resort.
    Finally, Congress and this committee in particular can play 
a decisive role by continuing to focus attention on this issue 
as you are doing by making clear that the FCC can use 
approaches that don't mandate receiver standards like the one I 
have mentioned and by funding the FCC to commission the 
engineering studies that are necessary to inform smart 
regulatory frameworks.
    So Mr. Chairman, that concludes my testimony. Thank you 
again for inviting me today. I would be very happy to respond 
to any questions.
    [The prepared statement of Mr. de Vries follows:]

    [GRAPHIC] [TIFF OMITTED] T5744.008
    
    [GRAPHIC] [TIFF OMITTED] T5744.009
    
    [GRAPHIC] [TIFF OMITTED] T5744.010
    
    [GRAPHIC] [TIFF OMITTED] T5744.011
    
    [GRAPHIC] [TIFF OMITTED] T5744.012
    
    [GRAPHIC] [TIFF OMITTED] T5744.013
    
    [GRAPHIC] [TIFF OMITTED] T5744.014
    
    [GRAPHIC] [TIFF OMITTED] T5744.015
    
    [GRAPHIC] [TIFF OMITTED] T5744.016
    
    [GRAPHIC] [TIFF OMITTED] T5744.017
    
    [GRAPHIC] [TIFF OMITTED] T5744.018
    
    [GRAPHIC] [TIFF OMITTED] T5744.019
    
    [GRAPHIC] [TIFF OMITTED] T5744.020
    
    Mr. Walden. Thank you, Mr. de Vries. We appreciate that. I 
was hoping you would give us your neighbor/tent analogy. I 
thought that really put it in perfectly understandable terms.
    We will go now to Mr. Markwalter, who is the senior vice 
president, Research and Standards, at the Consumer Electronics 
Association. Mr. Markwalter, we appreciate your testimony and 
look forward to your comments.

                 STATEMENT OF BRIAN MARKWALTER

    Mr. Markwalter. Thank you. Subcommittee Chairman Walden, 
Ranking Member Eshoo, and members of the subcommittee, on 
behalf of the Consumer Electronics Association, thank you for 
the opportunity to testify at today's hearing on ``The Role of 
Receivers in a Spectrum Scarce World.'' My name is Brian 
Markwalter and I am senior vice president of Research and 
Standards at CEA.
    CEA's more than 2,000 member companies include almost all 
the world's leading consumer electronics manufacturers and 
hundreds of small business. CEA and its members have a vital 
interest and an important role to play in ensuring the most 
effective and efficient use of spectrum.
    As we continue to examine how to make the most efficient 
use of our Nation's spectrum, CEA believes that spectrum 
management must include an approach that examines the 
interaction between transmitters and receivers. This approach 
need not cause a shift from command-and-control spectrum 
management to command-and-control device regulation. The 
pillars of spectrum policy in a world of overcrowded airwaves 
must include better information about receivers in the field 
and their ability to tolerate interference, certainty on 
possible new allocations so that businesses and Federal 
spectrum users may make informed design and investment 
decisions, and primary reliance on stakeholders to find the 
cost and performance boundary between adjacent systems.
    Equipment manufacturers and wireless service provides have 
a strong self-interest in developing and deploying devices that 
are resistant to forms of interference and to create as little 
interference as possible. Service providers require that their 
receivers meet very stringent design specifications to ensure 
non-interference.
    Licensed mobile devices must meet applicable standards 
bodies' requirements prior to use by wireless provides. The two 
primary examples are the standards created by the Third 
Generation Partnership Projects. Industry has developed these 
standards to ensure the items such as reference sensitivity 
levels, receiver input levels, adjacent channel selectivity, 
and blocking characteristics are standardized and controlled.
    Digital TV receivers provide another example of effective 
response by industry stakeholders to document the RF 
environment and the associated tradeoffs made by receivers to 
operate in the wide range of expected signal levels. The 
standard in this case ATSC Recommended Practice A/74. CEA 
believes that A/74 serves as a good starting point for the 
industry-to-industry dialogue as needed to complete incentive 
auctions and introduce new mobile broadband services as the 
upper adjacent neighbor to the TV band.
    The debate over efficient use of spectrum has moved beyond 
knee-jerk reactions and entered a thoughtful, solutions-
oriented discussion in venues like the FCC's Technological 
Advisory Council. The early calls for government mandates on 
device design have faded as stakeholders have come to 
understand that such approaches are not the best solution we 
have to spectrum crowding. We look forward to a broader review 
of the soon-to-be-released TAC report.
    As we work to mitigate interference between the services 
and receivers in adjacent bands, CEA offers the following 
principles to guide policymakers and industry:
    First, reduce uncertainty. The ultimate goal of spectrum 
management should be to make the interference environment more 
transparent so that designers have all the information needed 
to deliver cost-effective products that allow more efficient 
use of adjacent bands.
    Second, use voluntary performance principles and industry 
standards, not device mandates. Instead of adopting static 
regulations governing receiver design, we believe the FCC 
should allow industry to develop standards responsive to 
planned allocations.
    Third, collect information. The FCC should continue to 
carefully inventory what services are operating in each band 
and work with industry and government users to understand the 
types of receivers deployed and their interference immunity 
characteristics.
    Fourth, case-by-case analysis. Any regulatory action 
regarding spectrum allocations and receiver performance should 
be narrowly tailored to allow technological advancement. These 
principles are explained in more detail in my written 
testimony.
    To conclude, CEA is encouraged by the numerous fresh ideas 
on spectrum policy and the concerted effort to free up spectrum 
for much-needed commercial use. We believe that the right 
regulatory approach to spectrum management leverages 
stakeholders' deep understanding of their system capabilities 
and price points in response to any government-articulated 
plans for future allocations.
    I would be happy to answer any questions.
    [The prepared statement of Mr. Markwalter follows:]

    [GRAPHIC] [TIFF OMITTED] T5744.021
    
    [GRAPHIC] [TIFF OMITTED] T5744.022
    
    [GRAPHIC] [TIFF OMITTED] T5744.023
    
    [GRAPHIC] [TIFF OMITTED] T5744.024
    
    [GRAPHIC] [TIFF OMITTED] T5744.025
    
    [GRAPHIC] [TIFF OMITTED] T5744.026
    
    Mr. Walden. Mr. Markwalter, thank you for your very 
thoughtful testimony. We appreciate your being here today as 
well.
    I will lead off with the questions and I will start with 
you just as you were giving your testimony and certainly, Mr. 
de Vries. What did you think of Mr. de Vries' proposal for our 
consideration regarding the harm claim threshold notion of how 
you might--I won't say regulate in this space--but provide 
guidance in this space? Is that something CEA would be 
interested in? Is that something you see as workable?
    Mr. Markwalter. Yes, well, we are definitely interested. 
And we should confess we are both on the TAC and so we are both 
working this issue very carefully, the interference limits 
approach. There are a lot of details to be worked out yet.
    Mr. Walden. Um-hum.
    Mr. Markwalter. What is very appealing about the approach 
is it allows the problem to be stated and doesn't go directly 
to the solution. So as Pierre, described, it sets up the 
environment and allows----
    Mr. Walden. A framework.
    Mr. Markwalter. A framework.
    Mr. Walden. Yes.
    Mr. Markwalter. And, you know, leaves in the hand of the 
users to build equipment to meet those needs rather than going 
directly to solutions by dictating specific device performance. 
There are some complicated issues yet to be worked out about 
how you would, you know, establish the limits--
    Mr. Walden. Um-hum.
    Mr. Markwalter [continuing]. To begin with in different use 
cases but--
    Mr. Walden. I appreciate that and I want to encourage the 
TAC and its work and you two, since you are here in public and 
not back in your TAC world, to continue because while trying to 
break loose spectrum is one of the most enjoyable tasks we have 
here on the subcommittee. It is simple and easy and there is 
never any--well, there is a limit what we can do. And so we are 
going to be looking at all these efficiencies.
    Mr. de Vries, the growing need to place varied wireless 
services in neighboring spectrum bands has prompted the FCC to 
increasingly rely on guard bands, and that is something that I 
really want to drill in a bit here. How efficient a solution is 
that? One of my underlying questions I guess is how much guard 
band, how much spectrum lies fallow because we have this 
problem between transmitter and receiver? Can you kind of 
address that piece of this? And does anybody know how much that 
is? That is not calculated, I assume.
    Mr. de Vries. Mr. Chairman, I think the answer to it is how 
long is an elastic band? It depends on how hard you pull it. To 
go back to the levels analogy, so let's say I have got a 
receiver in this band--
    Mr. Walden. Um-hum.
    Mr. de Vries. If I set the level of the maximum 
interference that it can tolerate very low, that is effectively 
a guard band.
    Mr. Walden. Right.
    Mr. de Vries. Right? If I set it very high, it is not. And 
choosing exactly where--
    Mr. Walden. Right.
    Mr. de Vries [continuing]. One chooses that level 
influences how much you free up.
    Mr. Walden. Got it.
    Mr. de Vries. And so that decision, which the way we are 
thinking on the TAC probably--the discussion starts amongst 
engineers in a multi-stakeholder space--may end up at the FCC. 
But where that number is set influences how much more we can 
squeeze in.
    Mr. Walden. Right. OK. Well, you know, in my background I 
was in the radio broadcast business 22 years and a licensed 
amateur radio operator and so I played a little in this. And 
you know, we had to limit our transmission, can have this 
exposure and, you know, we all argued about how sloppy the 
front ends are on AM receivers, you know, and all the 
interference you get from power lines and everything else. And 
so it just has always struck me that there is ability to 
improve in that side of the equation. So I appreciate that.
    Let me go to Mr. de Vries. In the license context there is 
a licensee on the hook at the FCC that has an ongoing 
relationship with both the subscriber and the manufacturer.
    Mr. de Vries. Um-hum.
    Mr. Walden. The licensee can try to get a solution deployed 
in the marketplace, but when there is no licensee, as was the 
case with the GPS device problems in the LightSquared case, it 
is a lot harder to identify and help the individually impacted 
customers. So what do you think the remedy is in such cases 
short of prohibiting or limited the proposed new service? Do we 
need to treat these situations differently from the licensed 
ones? Do we need to be particularly careful where and how we 
deploy such devices?
    Mr. de Vries. I think one definitely needs to pay 
additional care to these cases for exactly the reasons that you 
state. I think that there are a variety of possible solutions 
on offer, and the ones that are chosen depends on one's 
assessment of the risk. So the simplest solution is to say we 
will set the harm claim thresholds and we will assume that it 
is a well run industry with a lot of consensus and they will 
come up with industry standards and they will sort it out.
    On the other hand, if one has less appetite for risk, you 
could say we are going to require manufacturers to self-
certify, not have the government tell them how to build their 
devices, but say it is going to work. And then thirdly, and 
that is the last resort that may be necessary for there to be 
mandated standards for particular kind of devices.
    Mr. Walden. OK. My time has expired. Before I turn over to 
my ranking member and friend from California I just want to say 
publicly that the chairman of the FCC was very helpful to me 
during the LightSquared GPS issue by making Julius available 
for a closed-door meeting of engineers from both sides. The 
poor legal folks and lobbyists were, you know, apoplectic on 
the sidelines but we tried to drill down in this space: is 
there an engineering solution here? Are there notch filers? Are 
there other things you can do in this space? So I appreciated 
his willingness to let us do that.
    I turn now to my friend from California.
    Ms. Eshoo. Thank you very much, Mr. Chairman.
    And thank you again to the witnesses not only again for 
your patience but your excellent testimony, too. It is on a 
very important subject.
    Before I begin with the questions, I would just like to 
ask--and you don't have to do it now--but in the majority's 
memo for today's hearing it states that the PCAST report 
recommended the establishment of minimum technical standards 
for receivers, and I would just like to know where in the 
report it says that? We don't find it, and as we are talking 
about whether there should be or shouldn't be and how much, I 
think that it is important to have that clear. So it is in the 
memo but we don't find it in the PCAST report. But you can get 
that to us?
    Mr. Walden. Yes, I didn't----
    Ms. Eshoo. Yes, afterward. All right?
    Mr. Walden. We will be happy to find it.
    Ms. Eshoo. But I think it is a semi-important point.
    To Mr. de Vries, you have been an advisor, you know, to 
PCAST, to the President's Council of Advisors in Science and 
Technology. Can you describe how government users would benefit 
from establishing objective criteria for harmful interference 
conditions? And just be as brief as you can because I want to 
get through the panel.
    Mr. de Vries. Um-hum. I think government users would 
benefit by there being clearer criteria for what counts as 
harm, which means they would be able to engineer their systems 
to be more interference-tolerant, jamming-tolerant.
    Ms. Eshoo. And by putting in place what you just described, 
does this require technological advances? Are there costs to 
it? And how open would the defense community be to it do you 
think, I mean in your estimation, because that is really the 
largest nut to crack I think.
    Mr. de Vries. The setting of the threshold is just a 
number. And the engineering that is required is left to 
industry.
    Ms. Eshoo. Um-hum.
    Mr. de Vries. I can't speak for the DOD. I would observe I 
think that one of the benefits of having clearer fences is that 
it makes sharing or coexistence more feasible, which means that 
it is less necessary perhaps to relocate and clear.
    Ms. Eshoo. Um-hum.
    Mr. de Vries. They may find that attractive.
    Ms. Eshoo. Um-hum. Thank you.
    Mr. Repasi, thank you again for your fine work and for 
being here. We have heard today that in reallocating spectrum, 
the FCC should consider an inventory of services and receivers 
that are operating in adjacent bands. Does the FCC do this 
today? And if not, from an engineering perspective, would this 
information help you to better anticipate potential concerns 
with harmful interference?
    Mr. Repasi. Thank you. Currently, the FCC does not collect 
an inventory of receives that are in adjacent bands. We rely 
on----
    Ms. Eshoo. How do you know?
    Mr. Repasi. We rely on the information that is supplied in 
the course of our rulemakings. Manufacturers who have concerns 
about interference, whether it is on a band or overload 
interference, will supply technical information to support 
their arguments on what their threshold----
    Ms. Eshoo. I mean, wouldn't it be in the interest of 
whomever is the applicant to bring forward what is advantageous 
to their case and then you rely on that?
    Mr. Repasi. That is correct. The earliest possible 
opportunity, of course, would be when the Commission issues a 
proposal for a new rule, whether it----
    Ms. Eshoo. I think that is a little squishy, don't you?
    Mr. Repasi. Well, that is the first opportunity.
    Ms. Eshoo. Well, I mean you may not want to say yes to 
that, squishy, but I mean, you know, in this town people 
obviously are going to advance and I think it is human nature 
to advance the best case possible, to advance your case. But if 
the information you are using is just that, it could be biased 
and that is what I am concerned about. But maybe I am off on 
the wrong track on this.
    Mr. Repasi. But that information would go into what 
proposals we present and we seek comment on those. And if there 
were assumptions that we made that are challenged by the 
public, we take that information into account. And usually, 
supporting technical material is supplied in our record to 
support the challenge to our assumptions.
    Ms. Eshoo. Thank you very much.
    Mr. Markwalter, thank you again for what you do. You 
suggested in your testimony that equipment manufacturers have a 
strong self-interest in developing and deploying products that 
create as little interference as possible. I agree, but is this 
a problem that has been many years in the making? I mean to 
help expedite a long-term solution, would you support the FCC 
reopening the formal proceeding on the matter? Does it need 
that?
    Mr. Markwalter. So I think given the time that has passed 
and the amount of work that is even currently underway----
    Ms. Eshoo. Um-hum.
    Mr. Markwalter. I would recommend we wait for the TAC 
report to come out and see----
    Ms. Eshoo. Um-hum.
    Mr. Markwalter [continuing]. What work is teed up for the 
TAC next year, because I think the interference limits, this 
notion of clarifying rights and expectations is being addressed 
pretty thoroughly.
    Ms. Eshoo. Um-hum.
    Mr. Markwalter. So I would leave it at that. I think there 
is plenty of work----
    Ms. Eshoo. Um-hum.
    Mr. Markwalter [continuing]. For the industry yet to do in 
that environment.
    Ms. Eshoo. Thank you. That is most helpful. Thank you to 
each witness.
    And thank you, Mr. Chairman.
    Mr. Walden. You are welcome.
    The Chair now recognizes the gentleman from Nebraska, the 
very able vice chair of the Subcommittee on Communications and 
Technology, Mr. Terry.
    Mr. Terry. Well stated, just like I wrote it.
    Thank you, Mr. Walden, for your able leadership over the 
last 2 years. And certainly the receiver issue is one that you 
have mentioned many, many times and I am glad we have this 
hearing.
    I am intrigued, Mr. de Vries, about this harm claim 
threshold standard. It is almost a libertarian type of view in 
how to resolve this issue. I have to work in examples, so the 
first issue that I have is how do we resolve the incumbent 
receiver? And so using the GPS versus LightSquared issue, using 
the harm claim threshold, tell me how that would require or 
force GPS receivers to upgrade to be able to better filter out 
the delete over interference?
    Mr. de Vries. The way I anticipate this might work is when 
you start, you are going to have a lot of devices out there. We 
are beginning a transition. So the thresholds would be set very 
low. So I am the GPS receiver, very low interference threshold 
so that all the existing receivers are protected. That may be 
so low that no service can be deployed. The FCC might then say 
or industry might agree that 10 years from now it goes up to 
here at which point these receivers have 10 years to build 
filters to accommodate this increased signal.
    Mr. Terry. All right. That is interesting. How would they 
know how to predict what type of interference or level of 
interference could occur in 10 years? So in a sense would the 
FCC have to come back and say, hey, there is this new standard? 
So now we are getting back to the standards issue. So is that 
the way it would work? Because right now, these GPS folks can 
just say we don't have any reason to move.
    Mr. de Vries. I am so glad you asked that question, sir, 
because I wasn't clear. So the harm claim threshold doesn't 
attempt to describe the actual interference environment.
    Mr. Terry. All right.
    Mr. de Vries. It simply says if the interference is below 
this number, you cannot claim harm.
    Mr. Terry. OK.
    Mr. de Vries. If it is above the number, then you can. So 
the FCC does not get into the business of trying to predict 
what the environment will be.
    Mr. Terry. But just where the threshold would be, the harm 
threshold----
    Mr. de Vries. Yes.
    Mr. Terry [continuing]. Would still be set by the FCC?
    Now, Mr. Repasi, add a layer then on the involvement in 
this plan of the FCC. How long would it take for the FCC to 
establish a harm claim threshold and what would be the 
processes to get there?
    Mr. Repasi. Thank you. Well, as we know, currently, the TAC 
is debating on how to flesh out this approach and provide 
formal recommendations to the Commission. We also have the GAO 
that is reviewing spectrum efficiency standards, and that 
report is due by February of next year. We, of course, would 
have to take the recommendations from the TAC and then the 
recommendations----
    Mr. Terry. Well, for further questions let's just assume 
that TAC recommended an approach like the harm claim threshold.
    Mr. Repasi. Right. It would come down to where we would 
apply it first. If it is applied in a specific case, we would 
have to determine who the neighbors are before we could 
adjudicate whether the harm claim threshold is sufficient to 
protect the existing services, let alone services that are----
    Mr. Terry. So it would still have to be done on a per-
device level?
    Mr. Repasi. I think it would still have to be on a case-
specific, band-specific basis, yes.
    Mr. Terry. OK.
    Mr. Repasi. Because the interference to a receiver that is 
looking into space for example, may be a much lower threshold 
than for a receiver that is communicating with a broadband 
advanced wireless system.
    Mr. Terry. Some of the earlier discussions amongst us is 
that the FCC preferred more of a standards-based. I would 
assume the thinking would be that on a standards-based, then it 
is clear; everyone knows what they have to manufacture to or 
engineer up to. Any thoughts that you could share with us? Is 
that where the FCC is? Are they waiting for the report to come 
out?
    Mr. Repasi. I think we are waiting for the report to come 
out. We want to make sure we have all the facts in line before 
we come out with a specific proposal on how to implement some 
of the recommendations, including from the GAO. So I think we 
are a little bit of a wait mode. But nonetheless, we want to be 
sure that we don't curb innovation. We did have that 2003 NOI 
that we released. We got a lot of good comments from the 
industry. Some of the comments still remain today. The 
sentiment still remains the same. And there was concern 
expressed in the record there that standards could equate to 
curbing innovation, and we want to be careful not to be in a 
position to stop innovation.
    Mr. Terry. All right. Thank you.
    Mr. Walden. The gentleman's time is expired.
    Turn to our friend from the Virgin Islands, Dr. 
Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    And again thank you for your patience with us today.
    I guess I would ask this question to the panel but 
beginning with Mr. Repasi because I know you are familiar with 
NTIA's work in the role of receivers in managing spectrum for 
Federal users. Do you or any of the other panelists think that 
there are lessons that we can learn from NTIA's approach to 
setting Federal receiver standards?
    Mr. Repasi. Thank you. Yes, I believe you are referring to 
the NTIA study document that was produced in the 2003 time 
frame as well, and they listed several types of standards for 
the fixed and mobile systems that were operating through a 
range of spectrum. That of course is helpful to know where 
things are on the Federal side as far as where they operate and 
what their thresholds are for interference so that when we do 
get into looking at new uses of spectrum that involve Federal 
users, we at least know what the starting point is.
    Mrs. Christensen. Any other comments from anyone else? So I 
will just go on to another question.
    Mr. de Vries. The one thing that I learned from that report 
was how complicated receiver specifications become and how 
service-specific they are and that they intend to imbed 
assumptions about how things work today into requirements that 
then live on perhaps for life.
    Mrs. Christensen. And as things change and new innovation.
    Just if you wanted to comment.
    Mr. Markwalter. Thank you. And I agree with that. It is a 
good reference point but a Federal user is both user and 
procurer, you know, manages everything about it. In a 
commercial case, the allocations are done by the FCC but 
equipment may be purchased by a licensee or may be done 
independently. So there are a lot of parts at work that doesn't 
map over from Federal use to commercial use.
    Mrs. Christensen. And Mr. Markwalter, what tools do you 
think are currently available to the FCC to incentivize and 
improve receiver standards?
    Mr. Markwalter. Yes, so I know we are all kind of falling 
back on the TAC report. I think there are some good things that 
will be documented in the TAC report. The FCC right now, you 
know, clearly can articulate the emissions side. It is less 
clear what the authority is on regulating receivers. And, you 
know, as we have said, we probably need to see what the exact 
tools are being proposed before we decide whether that is the 
right amount of authority or not. And then as the previous 
cases show, they have the ability to go in and work with users 
in adjacent bands and figure things out, but the evidence I see 
is that the best case is when the adjacent users, even if they 
are in conflict because the problems are typically so technical 
and so case-specific, if they can bring a solution to the FCC, 
that seems to be the best outcome.
    Mrs. Christensen. OK. So that was my next question which I 
was going to pose to Mr. de Vries. What role do you think 
manufacturers of receiver devices should play in setting 
performance levels or defining a reasonable level of 
interference?
    Mr. de Vries. I think manufacturers do that as part of 
their business. The discussion about what a good receiver is is 
a negotiation between the provider and their customer and that 
that is what happens when industry sets standards or when 
purchasers like the Federal Government do it.
    Mrs. Christensen. OK. Thank you, Mr. Chairman. I will yield 
back the balance of my time.
    Mr. Walden. I thank the gentlelady for yielding back.
    I think we have each got a few other questions to ask.
    I am going to throw one out that is just slightly outside 
of what we came here to talk about but it plays into it a bit, 
and that has to do with the notion of efficient use of spectrum 
as opposed to just interference use. But do you all look at 
things like how much spectrum there might be or more usage 
capability if you have, for example, interoperable devices in 
the cell phone world? Does LTE and that sort of thing, does 
that begin to merge all that in when you are looking at total 
number of users versus total amount of spectrum? I mean do you 
all get into those discussions?
    Mr. de Vries?
    Mr. de Vries. Chairman, I grin because I have great 
difficulty with the concept efficient use of spectrum.
    Mr. Walden. OK.
    Mr. de Vries. I don't know what it means. To me maybe 
because I am a geek, efficiency is a ratio. It is what you get 
out for what you put in.
    Mr. Walden. Um-hum.
    Mr. de Vries. The number of frequencies that you put in is 
not the only input.
    Mr. Walden. Um-hum.
    Mr. de Vries. There are things like investment costs----
    Mr. Walden. Um-hum.
    Mr. de Vries [continuing]. Infrastructure costs, deployment 
costs, and I think what I try to focus on is how do we maximize 
the value of radio services.
    Mr. Walden. OK.
    Mr. de Vries. And in fact that is somewhat of a change from 
what we have traditionally done, which is how do we minimize 
interference if we need to maximize value?
    Mr. Walden. All right. Now, bring that down from your 
physicist level. You know, we work better with pictures----
    Mr. de Vries. Yes.
    Mr. Walden [continuing]. And small words. So tell me what 
that means for us as policymakers. I mean, from your perch, 
from your big-brained perspective, what is it we can do in this 
space? I mean we all talk about crisis and spectrum. There is 
spectrum out there right now. I think this is a down-the-road 
spectrum crisis and hopefully technology eclipses that. But 
what is it that we should be looking at that we are not?
    Mr. de Vries. I think the first thing I would say is that 
you have to keep all our noses to the grindstone.
    Mr. Walden. That is what we are here for.
    Mr. de Vries. As you have said, it is a long-term problem 
and everybody's tendency is to punt and not deal with the long-
term ones because there are lots of short-term hard problems.
    Mr. Walden. Um-hum.
    Mr. Markey. It is not just us, sorry, that likes to punt 
things.
    Mr. Walden. So what should we be looking at specifically?
    Mr. de Vries. What I, of course, would be saying is two 
things: one, to focus on encouraging the FCC to set these clear 
boundaries--
    Mr. Walden. Um-hum.
    Mr. de Vries [continuing]. Because I have ended up thinking 
about interference limits as the minimal effective step that we 
need to take to make progress on this problem.
    Mr. Walden. Um-hum.
    Mr. de Vries. And I think part of that is to, if you can, 
remove any uncertainty that the FCC has the ability to do that 
because there have been doubts about FCC authority regarding 
receiver standards. These are not receiver standards; 
therefore, they should be able to move ahead.
    Mr. Walden. OK. Mr. Markwalter, do you have some comments 
along these lines?
    Mr. Markwalter. I don't think I have much to add. There are 
some people who are looking at the question of the complexity 
of band plans, especially for cell phones--
    Mr. Walden. Um-hum.
    Mr. Markwalter [continuing]. Which is sort of related to 
what you are talking about. One of the things that inhibits 
phones that can be used across a lot of different carriers and 
a lot of different bands is the fact that, you know, as we find 
more spectrum, it is not all together--
    Mr. Walden. Right.
    Mr. Markwalter [continuing]. Anymore. It is scattered 
around. And so there is a separate part of the TAC working on 
that issue as--
    Mr. Walden. Sort of----
    Mr. Markwalter [continuing]. It is sort of an unrelated 
problem.
    Mr. Walden. Right.
    Mr. Markwalter. You know, we conjecture that, you know, 
there is a time in the future where technology gets better and 
better where receivers can be more agile so--
    Mr. Walden. Um-hum. So you can skip across the bands and 
still----
    Mr. Markwalter. Correct. And we are clearly not there yet--
    Mr. Walden. Um-hum.
    Mr. Markwalter [continuing]. And we are having some 
discussion about how accurately we could project when that 
would happen. And really what you would like to do is have 
receivers that are cost-effective that can be agile in the 
future; then, you have got a shot at changing allocations.
    Mr. Walden. All right. Thank you.
    Once again, I am going to turn to Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman. I will be as brief as 
possible. I just have three quick questions to ask Mr. Repasi 
and yes or no will do.
    I would like to ask you to address the question that has 
been raised about the need for guard bands if receiver filters 
can dramatically improve spectral efficiency. Do you think 
based on today's filter technology that guard bands can be 
eliminated as an interference mitigating solution? Yes or no? 
No.
    Mr. Walden. Turn on your mike.
    Mr. Repasi. I am sorry. No, I don't think they can be 
eliminated in all cases when you have two adjacent services.
    Ms. Eshoo. Are you seeing any leaps in improvement of 
filter technology for public broadband services?
    Mr. Repasi. Seeing leaps, no; seeing improvements, yes. 
Filter technology is improving. As I mentioned in my testimony, 
we have met several times with equipment manufacturers and 
component designers, and at the component level, there are 
improvements being made mainly because of the demand for more 
broadband services. The demands are being placed on the 
component designers to come up with better filters that are 
sharper and able to better deal with interference issues 
because they have got the spectrum congestion issues.
    Ms. Eshoo. So in the foreseeable future we still need guard 
bands to separate mobile broadband services from adjacent 
services like over-the-air broadcast television?
    Mr. Repasi. Yes. With current technology, even in the PCS 
world where they are going to 4G deployments with LTE----
    Ms. Eshoo. Um-hum.
    Mr. Repasi [continuing]. Remember, you have downlinks in 
one band and uplinks in another----
    Ms. Eshoo. Uplinks in the others, um-hum.
    Mr. Repasi [continuing]. With frequency division duplex 
technology----
    Ms. Eshoo. Um-hum.
    Mr. Repasi [continuing]. Where there is a duplexer spacing 
in between the two out of necessity because the up- or downlink 
channel could interfere with the lower uplink channel if there 
is not sufficient----
    Ms. Eshoo. Um-hum.
    Mr. Repasi [continuing]. Separation between the two. That 
is the equivalent of a guard band.
    Ms. Eshoo. Um-hum.
    Mr. Repasi. And this is with the state-of-the-art 
technology as it is now.
    Ms. Eshoo. Thank you.
    I yield back, Mr. Chairman.
    Mr. Walden. Thank you.
    Gentleman from Nebraska?
    Mr. Terry. Thank you. Mine is to the consumer electronic, 
Mr. Markwalter. So let's take the again GPS/LightSquared 
interference issue. And now the FCC is threatening or 
developing their harm threshold saying that now GPS devices 
have to have a higher level of being able to filter out the 
interference. What does that mean to the consumer electronics 
manufacturers who are making the GPS? What would be the burdens 
on them and what would be the potential cost to them to now 
develop the filters to meet this harm threshold?
    Mr. Markwalter. Sure. I think the industry and one of the 
things we have talked about a lot and I have included in my 
testimony is how important it is to have the industry directly 
involved in that. And in my mind, ideally, you want the 
industry to try to develop those numbers, to recognize the 
problem and try to develop those numbers because it is very 
hard as an outsider to understand the cost and performance 
impact.
    GPS in particular isn't a communication system as everybody 
has talked about. You know, it is a positioning system so it 
has different behaviors in how it is trying to pick up signals, 
so I won't even hazard to guess what the cost impact would be. 
And the truth is it depends on where you set the level. And so 
that is going to take some dialogue about, you know, how much 
impact do you want to have on this type of positioning system 
to in the future be able to get new use of the adjacent band.
    Mr. Terry. All right. And it still comes back to that. It 
is almost a device and some specific for the FCC would have 
different thresholds particularly on different devices, Mr. de 
Vries?
    Mr. de Vries. I don't think that would be appropriate. That 
actually to me would be a receiver specification. So if you 
build this device, you have got to do this. I believe that it 
is appropriate to set the harm claim threshold for a service. 
And so, for example, in a service like GPS, you could have a 
certain level for terrestrial operations. You might have 
another level, a different value, for aviation. But many more 
permutations like that and we get too----
    Mr. Terry. Right. That makes more sense to me. All right. 
Still, it means that incumbents would have a new standard put 
on them or threshold of harm that was different than perhaps 
when the manufacturers put the product out, whatever it would 
be. So they would have to redevelop technology for the next 
generation of device. All right. I wish I can come up with more 
questions but that did add some context and clarification. So 
thank you.
    Mr. Walden. The interesting thing in that is it is kind of 
what we all go through with updating computers and software.
    Ms. Eshoo. Absolutely.
    Mr. Walden. You know, I tried to download a little app on 
my older iPhone and the new app won't load on the old iPhone.
    Ms. Eshoo. Right. Right.
    Mr. Walden. I mean it just is the march of technology.
    Mr. Terry. That is a discussion some of us lay people were 
having in our office. What does it take? Is this simply writing 
new code or is the device going to have to have physical filter 
device chips in it? What does it take?
    Mr. Walden. I will let the engineer----
    Mr. Terry. Do we have an engineer here?
    Mr. Markwalter. So this also relates kind of to the other 
questions to me. I think most of what we are talking about here 
is a hardware question, what the engineers would call the RF 
front end, the radio part of the equipment. And so we are 
talking about things like filters for the most part. This other 
group that, you know, we are looking at these potential for 
future agile radios. What we hope to get to is where there is 
less of that sort of fixed, you know, these components that 
can't move; they are highly specifically designed to more of 
this, you know, digitally with processors and algorithms, you 
know, software as you talked about, but we are not there yet 
for very many things. Most of it is still much more cost-
effective, performance is a lot higher, and the battery life is 
a lot better to separate out the RF front end.
    Mr. Walden. OK.
    Mr. Markwalter. So for now it is hardware.
    Mr. Walden. Mr. Gingrey, do you have any questions for our 
witnesses or comments you would like to make? We have a 
transmitter issue here.
    Mr. Gingrey. Yes, I----
    Mr. Walden. You might want to slip to the other microphone.
    Mr. Gingrey. Is it working?
    Mr. Walden. No.
    Ms. Eshoo. No.
    Mr. Gingrey. All right. I will move.
    Mr. Walden. I think you may have to move up to this level, 
which you have sought to do for some time.
    Ms. Eshoo. He can sit next to me.
    Mr. Gingrey. I am making progress.
    Mr. Walden. Watch the seniority grow, right there, before 
our very eyes.
    Mr. Gingrey. Mr. Chairman? All right. We are live. Mr. 
Chairman, thank you for calling today's hearing on another 
issue within the realm of spectrum, and of course, that is the 
receivers.
    And I also want to thank the panel, these technical experts 
in providing the subcommittee with their perspective on this 
important issue. In my brief time this morning I will get right 
to my questions. And let me start with you, Mr. Markwalter.
    Based on your testimony, you voiced support for industry 
standards as opposed to FCC mandates when it comes to the 
interfering subordinates. Would FCC standards undermine what is 
already in place, and if so, how?
    Mr. Markwalter. Well, in some cases we already have very 
good industry standards in place, so I guess if the FCC did 
something on top of that, I would argue that it would undermine 
it because it would in effect overrule what maybe industry has 
already done. So when I talked about the cell phone industry 
has very robust standards and, you know, a very strong test 
regime to make sure products meet it. So overlaying mandates on 
top of that probably would have a bad effect. And, you know, 
what we would like to see is industry working on these 
voluntary standards because we think they understand their use 
cases better and what can be tolerated in terms of cost and 
efficiency and then figure out where there is regulation 
necessary or not from that point.
    Mr. Gingrey. Mr. de Vries, do you have a comment on that?
    Mr. de Vries. So I would actually echo that because the 
standards that industry set reflect what their best practices 
are. Very often--and Mr. Repasi can correct me--but the FCC 
does sometimes incorporate reference to industry standards in 
its rules deferring to industry. The difficult issue that the 
harm claim threshold and interference limit approach is trying 
to address is not one industry trying to referee interference 
from Verizon to AT&T to T-Mobile but from cellular to broadcast 
things, say, or vice versa. And typically, what we have seen is 
that broadcasters don't often read the cellular standards and 
the cellular guys don't read the broadcasting standards. That 
is an outstanding problem.
    Mr. Gingrey. Well, let me then move to Mr. Repasi and shift 
a few questions for you in your important position as part of 
FCC. Can you clarify for us whether the FCC currently has the 
authority to impose receiver standards?
    Mr. Repasi. Thank you. I am here to offer engineering and 
technical expertise. I am not in a position to offer a legal 
opinion on the Commission's authority but I can say that the 
approaches that are being considered within the TAC are 
certainly within our ability from a technical perspective to 
implement the approaches that are being highlighted in that 
process.
    Mr. Gingrey. Yes, I was going to ask. I think maybe you 
just answered the question. I was going to ask you if this was 
a situation where we in Congress would need to act to grant FCC 
the necessary authority but you have kind of taken a pass on 
that in regard to your level of expertise. Personally, I think 
that it is unclear as to what authority the FCC has in this 
arena. Hypothetically speaking, and not to indicate support for 
further regulation, but does the Commission currently even have 
the resources to set technical standards for this wide variety 
of receivers out there? And would Congress need to authorize 
and appropriate new funding for this purpose under the FCC?
    Mr. Repasi. Thank you. Yes, we do have the technical 
expertise to deal with the recommendations that come out of the 
TAC. Again, I think we have the expertise to implement those. 
As far as funding goes, we are in a position now where we would 
have to factor in any budgeting into the next fiscal year 
budget and we would have to address it when we deal with our 
budget issues for the following year as far funding new 
programs at the agency.
    Mr. Gingrey. Yes, well, of course as I am sure you all have 
talked about in your testimony, there are untold number of 
receiver devices out there for hundreds of different purposes, 
and we see them all parts of society. So therefore, how would 
you anticipate receiver regulations even being implemented? I 
mean is this something that can be done and how costly would it 
be? How much more funding would be necessary for the FCC to 
take on this challenge?
    Mr. Repasi. I don't have a specific cost estimate or even a 
ballpark that I could offer up, but as far as the approach, I 
would imagine if we apply the approach in several frequency 
bands, it could be voluminous at first trying to manage the 
different type of receiver specifications. As Mr. de Vries had 
mentioned, broadcasters are not participating in 3GPP. 3GPP 
participants aren't participating in the broadcast standard 
development. So it is going to be new, I think, across 
different industry sectors on understanding the underpinnings 
of each of the standards. So I think there is a hurdle there 
and it will take some time to get that level of understanding 
among the different industry sectors.
    And then as far as incorporation by reference to some of 
the standards, we are very familiar with 802.11 from IEEE. We 
are very familiar with the 3GPP standards. So again within the 
Commission we have the expertise. We know the underpinnings of 
those standards, so maybe it is less of a hurdle for us to deal 
with it.
    Mr. Gingrey. Well, thank you very much. I thank all three 
of you.
    And Mr. Chairman, I yield back.
    Mr. Walden. I thank the gentleman for yielding back.
    I recognize the gentleman from Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    We are about to enter a brave new world where tens of 
thousands of domestic drones consume an increasing share of 
spectrum and crowd into already congested bands. The FAA 
Modernization and Reform Act passed in February requires the 
Federal Government to fully integrate government commercial and 
recreational drones into U.S. airspace by October of 2015. 
There could be as many as 30,000 drones in the sky above the 
United States by 2020. Drones can carry surveillance equipment 
including video cameras, infrared thermal imagers, radar, and 
wireless network detectors. Drones may gather information, take 
measurements, snap photos, use GPS and communicate all this 
information back to its operators. All this requires spectrum 
and raises a number of questions about whether this 
dramatically expanded use of drones will cause interference 
problems.
    But we must also ensure that as drones take flight in 
domestic airspace, they don't take off without privacy 
protections for those along their flight path. Drones shouldn't 
interfere with our privacy and they also shouldn't interfere 
with other devices using neighboring spectrum.
    Mr. Repasi, what steps is the FCC taking to ensure 
potential interference problems are addressed as thousands of 
drones will soon fill our skies? Has the FCC staff met with FAA 
staff to address what receivers are necessary on drones to 
ensure interference is minimized? And what are you doing to 
protect privacy?
    Mr. Repasi. Thank you. As far as interference concerns with 
respect to drones, it is a case of interference scenario just 
like any other where you have radio communications equipment, 
whether it is used for video or whether it is used for 
controlling the aircraft. We have tradeoffs that we have to 
make with respect to the allocation, whether it is in an 
aeronautical band and who the neighbors are so we can deal with 
power levels and emissions to make sure that interference is 
not caused to those drones.
    As far as working with the FAA, we stand ready to work with 
the FAA to discuss these issues. In fact we have a team of 
folks who deal with the FAA regularly on the Interdepartment 
Radio Advisory Committee where not just the FAA but other 
Federal agencies who are interested in the use of drones 
participate and discuss technical issues that we deal with from 
an interagency perspective.
    And I must say from a privacy perspective, I haven't been 
involved in privacy issues with respect to the Commission's 
work, but I would be more than happy to go back to the 
appropriate bureau and have somebody contact you directly to 
answer your questions.
    Mr. Markey. Well, today, Mr. Barton and I are releasing the 
FAA's response to our inquiry asking how the agency plans to 
ensure that the privacy of Americans will be protected as the 
agency permits the large expansion and use of drones in 
domestic airspace. What is clear from the FAA's response is 
that they have little interest in establishing privacy 
protections, public transparency into its current and future 
licensing process. The FAA is wrong. The FAA is dead wrong on 
this issue in terms of ensuring that privacy is protected.
    These 21st century eyes in the sky shouldn't become spies 
in the skies preying on the private lives of Americans all 
across our country, 30,000 drones without insurance that the 
information gathered is not compromised.
    All three of you, hopefully, would support legislation that 
establishes privacy rules of the sky that ensure private 
information on Americans is protected before drones are 
licensed. So the question that I have for each of you is do you 
think drone operators should have to disclose what data they 
collect, how long data is retained, and whether information is 
provided or sold to third parties? Does the public have a right 
to know where and when these drones will be flying over their 
backyards gathering information about their families? Mr. de 
Vries?
    Mr. de Vries. Sir, I am afraid I have no expertise.
    Mr. Markey. That is fine. Mr. Markwalter?
    Mr. Markwalter. The same. I am not familiar with the issue.
    Mr. Markey. OK. Well, I will tell you who the experts are--
your ordinary families. And as new technologies take off, they 
have to be accompanied by the human values which have animated 
civilization for 5,000 years and the protection of the sanctity 
of a family its privacy. What it does, where it goes is still 
central to the identity of us as a species. And I think it is 
important for this committee to play a role in ensuring it is 
built into this new technology.
    I thank you, Mr. Chairman.
    Mr. Walden. The gentleman's time is expired.
    I turn now to the gentleman from Florida, Mr. Stearns.
    Mr. Stearns. Yes, thank you, Mr. Chairman.
    Mr. Markwalter, you stated in your testimony that an 
inventory of what services and receivers are operating in each 
band as an area of spectrum policy that needs more attention. 
And so I agree with you and have long called for various 
spectrum inventories to be conducted. Do you think there is a 
role for Congress here that there should be legislation that 
would apply to help bring this spectrum inventory to fruition?
    Mr. Markwalter. I think at this point we should see what 
the TAC tees up for next year because I think this question of 
the dearth of information on what is out there is going to 
become critical, and so we may see some work in that area. So I 
think we can wait for a couple more reports to come out and 
then address the issue of whether legislation is needed to push 
it.
    Mr. Stearns. And what time next year will this be?
    Mr. Markwalter. So presumably the TAC would lay out its 
work agenda early in the year. We have had quarterly meetings 
in the past. I would think within the first quarter of next 
year we would have both the GAO report and know what the TAC 
plans on working on.
    Mr. Stearns. Mr. de Vries, as you explained your testimony, 
``wireless systems in one band that cannot tolerate reasonable 
signal levels in an adjacent band unfairly imposed cost on 
others, notably the operators in those adjacent bands, while 
reaping the benefits themselves, for example, by using cheaper 
receivers.'' You know, I think this is what exactly happened in 
LightSquared or the GPS case. As you stated, not only is this 
unfair, but it also prevents the addition of new wireless 
services that could foster innovation, improve public safety, 
and obviously create jobs. What do you believe either Congress 
or possibly the FCC, their role to prevent this situation from 
occurring again?
    Mr. de Vries. I believe the important role that the FCC can 
play is to foster the definition of these harm claim 
thresholds.
    Mr. Stearns. OK.
    Mr. de Vries. And they can do that by fostering a multi-
stakeholder process, bring parties from different industries, 
different services together, and then if necessary, to take 
steps to actually put those values into the rules.
    Mr. Stearns. Anyone else have a suggestion here? Mr. 
Markwalter?
    Mr. Markwalter. Yes, well, I agree. And as I mentioned 
earlier, we work on the TAC so you will probably get more 
alignment on our views than misalignment. I think we are sort 
of behind in the curve in all aspects. So none of our tools are 
in place to help us get in front of the problem and that is 
what we are trying to get to, a point where we can establish 
what we are trying to do with spectrum rather than build and 
then figure out we got a problem after the fact. So we really 
need to get some of these tools in place and unwind the problem 
a little bit. It is just not going to be solved overnight.
    Mr. Stearns. Mr. Repasi, you stated in your testimony that 
better awareness and coordination between entities in adjacent 
bands would go far in solving some of the receiver problems we 
have seen occur recently. What do you think the FCC's role is? 
Could they facilitate this process?
    Mr. Repasi. Yes, I think our rulemaking processes are open 
and transparent. We again make proposals based on assumptions. 
We expect that the folks who have an equity or stake in the use 
of that spectrum will come into our rulemaking process and 
challenge our assumptions, if there are concerns about 
interference, it would be brought up as early as possible in 
the process so that we could deal with those interference 
concerns before we go to final rule.
    Mr. Stearns. Any other folks on the panel have any other 
suggestions in how the FCC could facilitate this process? No?
    All right, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Walden. The gentleman yields back the balance of time.
    The Chair recognizes the future vice chair of the full 
committee, Mrs. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    And thank you all for being here and for the hearing.
    I have just got a couple of questions and I know you all 
are ready to depart this room. And we are going to have votes 
in a couple of minutes.
    Mr. Repasi, if I could come to you first. And I want to 
thank you all for submitting your written testimony in a timely 
manner. That is always helpful.
    You suggested in your testimony that the FCC clarify what a 
license-holder's rights are in a band of spectrum, incentivize 
receiver manufacturers to respect those rights, and enforce 
those rights when one licensee in an adjacent band doesn't play 
by the rules. So this policy framework if you will really 
strikes me as looking at three goals. And I want to see if you 
agree with this: number one is recognition of a licensee's 
rights in a given band of spectrum with clear rules of the road 
to ensure that licensees respect other licensees' valuable 
property rights; and number two, promotion of new entrance to 
the wireless marketplace because they would have regulatory 
clarity from the onset; and number three, accomplishment of the 
aforementioned goals without stifling innovation in the 
wireless marketplace by imposing potentially crippling device 
or guard band mandates. So recognizing that the Commission's 
Technical Advisory Committee plans to give us a report on 
December 10 that could address these issues, I would like to 
ask what your professional and technical opinion is on how you 
would instruct the Commission to structure the rules of the 
road and to provide the clarity and the guidance on respecting 
property rights.
    It is to you, sir.
    Mr. Repasi. Thank you. We are, as you are aware, awaiting 
the recommendations for the TAC but are also awaiting the 
recommendations of the GAO. They are mandated by the Job Act to 
have their report by February of next year. We would need to 
take that information, those facts into account in a general 
process where we have input from the public who could be 
affected by whatever rules we would propose to set up to give 
them clarity, to identify what the environment would look like.
    Mrs. Blackburn. Yes, sir. But I am asking what your advice 
to them would be. What would your professional advice be?
    Mr. Repasi. I am sorry. To the Commission or to the public?
    Mrs. Blackburn. Yes. Yes.
    Mr. Repasi. To the Commission? Well, clarity is good. 
Clarity allows certainty. Certainty leads to investment. 
Investment leads to competition and innovation, which is 
important for this mobile wireless economy. So certainly in any 
technical tradeoffs that would weigh into the policies that 
would be presented before the Commission, the technical issues 
are one of several things. You have got the legal and economic 
issues as well, but certainly the technical issues are very 
important from that perspective.
    Mrs. Blackburn. Yes, specificity and clarity in a timely 
manner is a good thing. So I appreciated your testimony.
    Mr. Markwalter?
    Mr. Markwalter. Yes?
    Mrs. Blackburn. In your testimony you wrote, ``the early 
calls for government mandates on device design have faded as 
stakeholders have come together to understand that such 
approaches are not the best solution we have to spectrum 
crowding.'' Now, I was pleased to read that because as anybody 
who has sat through these hearings has heard from me, I like 
seeing industry set best practices and guidelines and standards 
and come up with those rules of the road if you will. So in 
your view, what is the current status of the various private 
industry stakeholder proposals to address receiver standards? 
And do you think they are making progress in a voluntary self-
regulation working framework? And is there anything out there, 
any kind of uncertainty or lack of clarity that is preventing 
the industry from making progress toward meeting the balance 
between flexible use and greater efficiency?
    Mr. Markwalter. OK. Thank you. So I think industry--and I 
don't know if you are aware or not--CEA is one of those 
standard-setting organizations. In fact, our standards are 
incorporated by reference for closed-captioning for example. So 
because I am close to it, I guess I see the industry is always 
working on it. Where it might not be sufficient is the enter-
industry relationships as we have mentioned a couple of times 
here today where we are trying to put two users next to each 
other like cell phones and broadcasters and to get those 
industries talking. That level of dialogue needs to be 
increased. I think to the extent we have a shortcoming it is in 
that area.
    Mrs. Blackburn. OK.
    Mr. Walden. OK.
    Mrs. Blackburn. Anybody want to add anything further to 
that on the progress or lack thereof? OK.
    Yield back.
    Mr. Walden. Gentlelady yields back her time.
    I want to thank our witnesses for your testimony, your 
guidance, your counsel, your good work at TAC. I want to thank 
the FCC for your work in this area. Know that we care a lot 
about it and we are going to continue to be involved in it. And 
we will look forward to the report from TAC. We will look 
forward to the GAO report in February as well.
    The record will stay open for 10 days for further comments 
and questions or maybe some back to all of you, which would 
help us in our work.
    So again, thank you for your patience this morning as we 
got going and thank you for your comments and your testimony.
    With that, the subcommittee is adjourned.
    [Whereupon, at 1:22 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T5744.027
    
    [GRAPHIC] [TIFF OMITTED] T5744.028
    
    [GRAPHIC] [TIFF OMITTED] T5744.029
    
    [GRAPHIC] [TIFF OMITTED] T5744.030
    

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
